HHS/OIG-Audit--"Review of Costs Claimed by MedCare Home Health Services, (A-04-97-01170)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by MedCare Home Health Services, Inc.," (A-04-97-01170)
April 2, 1999
Complete
Text of Report is available in PDF format (1.14 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates that MedCare Home Health Services, Inc. was overpaid Medicare funds totaling at least $2.2
million in Fiscal Year 1996 for services that did not meet Medicare reimbursement requirements. A statistical sample of
100 claims disclosed unallowable payments for: (1) 484 services included in 30 claims that were provided to beneficiaries
who were not homebound; (2) 257 services included in 13 claims that were not reasonable or necessary in the opinion of
medical personnel; and (3) 18 services included in 1 claim for home health aide services provided to a beneficiary who
had contracted with a private agency to receive similar type services, therefore, the aide services were unnecessary. We
recommended that the Health Care Financing Administration (HCFA) instruct the Fiscal Intermediary (FI) to recover overpayments
of $2.2 million, and require the FI to instruct MedCare on its responsibilities to properly monitor subcontractors for
compliance with Medicare regulations. The HCFA concurred with our recommendations.